                                  OFFICE OF I NSPECTOR GENERAL




          Testimony of The Honorable Everett L. Mosley, Inspector General

                    U.S. Agency for International Development


                          Submitted to the Subcommittee on 

             International Economic Policy, Export and Trade Promotion, 

                             Foreign Relations Committee

                                      U.S. Senate


          Regarding U.S. Agency for International Development
                         Contracting Practices
                                       February 25, 2004

Mr. Chairman, other Committee members, and Committee staff:

Thank you for the opportunity to provide testimony on the U.S. Agency for International
Development’s (USAID’S) contracting practices. As you have requested, my testimony will
focus on USAID’S contracting practices, with emphasis on programs in Afghanistan and Iraq.

My Office has a continuing program to review USAID’S procurement operations. These
reviews consist of pre-award audits, incurred cost audits, and contract close-out audits that are
performed by my staff, by my staff, by contracted public accounting firms, and by the Contract
Audit Agency through a reimbursable agreement with my office. In addition, we have conducted
a series of audits to examine whether USAID’s Cognizant Technical Officers are properly
trained and accountable for performing their duties. Cognizant Technical Officers play a crucial
role in helping ensure that contractors deliver the goods and services contracted for.

COGNIZANT TECHNICAL OFFICERS (CTO)

To date, we have completed work in three USAID Bureaus in Washington and six USAID
Missions overseas. While we have not yet reached overall conclusions, audit work to date
indicates that many Cognizant Technical Officers are not adequately trained to perform
Cognizant Technical Officer duties. We are in the process of finalizing our summary audit
report to USAID which includes recommendations to ensure that (1) CTOS receive specific
training on a timely basis to become eligible for certification, and (2) CTO accountability is
improved by including their responsibilities in their work objectives.



                                  1300 PENNSYLVANIA AVENUE , N.W.
                                      WASHINGTON, D.C. 20523
AFGHANISTAN

In response to a request for assistance from USAID’S Administrator, my office has provided
advice on accountability and audit issues for the Afghanistan Assistance Program. For example,
OIG representatives served as observers at meetings of the Central Asian Task Force established
prior to the opening of the USAID Mission in Afghanistan to plan assistance activities.
Additionally, prior to the awarding of the major contract for rehabilitation of economic facilities
and services program in Afghanistan, USAID’S Bureau for Asia and the Near East, requested the
OIG’s cooperation in identifying appropriate audit coverage of the contract. Shortly after the
contract was awarded, my staff visited Kabul to perform a preliminary Risk Assessment of the
USAID program and develop and audit strategy.

The audit strategy includes a concurrent financial audit program as well as performance audits.
A series of concurrent financial audits are planned of costs incurred under the
USAID/Afghanistan Rehabilitation of Economic Facilities and Services Program. These
concurrent financial audits are designed to disclose accountability issues at an early stage, before
larger sums of money are put at risk. These audits are conducted by Public Accounting firms
and the Defense Contract Audit Agency

The audits in Afghanistan are supervised closely by my office to ensure audit quality. The first
of these Financial Audits, issued on January 23, 2004, covered about $1.2 million in local costs
paid in Afghanistan of which about $29,000 was questioned by the auditors.

My office has also issued a report on the progress of the Kabul-Kandahar Highway
rehabilitation. The report described both successes and challenges that had caused project
delays. As of November 1, 2003, Louis Berger Progress Reports showed that 222 Kilometers of
the 389 Kilometers Road Project had been paved and SAID officials stated that they planned to
have the entire 389 Kilometers of road completed with an acceptable interim paved surface by
the end of December 2003. USAID subsequently reported that this was achieved. Our report
also noted that Louis Berger had not updated its implementation plan required under the contract
to reflect changes made to the road reconstruction schedule. Therefore, we recommended that
USAID require Louis Berger to maintain an updated implementation plan for its activities under
the contract.

IRAQ

Our work on contracting in support of the Iraq program is being conducted in three phases:
(1) Examining the decision to use less than Full and Open Competition for nine contracts,
(2) Examining compliance with the Federal Acquisition Regulations in awarding contacts, and
(3) Conducting concurrent Financial audits and Performance audits of the program.

USAID has used less than Full and Open Competition in awarding nine of eleven contracts
awarded to date. Subpart 6.3 of the Federal Acquisition Regulations and Section 706.302 of the
USAID Acquisition Regulations allow use of less than Full and Open Competition when the
USAID Administrator makes a written determination that use of Full and Open competition
would be inconsistent with the fulfillment of the Foreign Assistance Program. The office of the
USIAD Administrator made this determination in writing on January 16, 2003. The OIG advised


                                                 2

the Ranking Member of the Senate Committee on Governmental Affairs of this determination in
a letter dated April 14, 2003.

To date, USAID has awarded eleven reconstruction contracts totaling $3.3 billion. These
contracts relate to Economic Governance, Education, Infrastructure Reconstruction, Personnel
Support, Seaport Administration, Local Governance, Monitoring and Evaluation, Health, Airport
Administration and Agriculture.

To date, my office has reviewed ten of these contracts with a value of $1.5 billion. We have
issued nine final memoranda on these reviews and a tenth memorandum is in draft at this time.
We plan to review additional contracts as they are awarded during the remainder of FY 2004.

These reviews indicate that USAID has done a good job of processing these awards under tight
timeframes to support the reconstruction program in Iraq. Based on the reviews completed to
date, my office concluded that USAID complied with the acquisition regulations applicable to
these contracts with the following exceptions:

.	 For three contracts, the auditors noted weakness in US AID’S documentation of its market
   research efforts to identify prospective contractors.

.	 For one contract, USAID staff should have consulted with its Office of General Counsel on a
   potential conflict of interest issue.

.   For one contract, USAID did not provide one offeror with timely notification that an award
    had been made and did not provide timely debriefings to three unsuccessful offerors.

In addition to these instances on non-compliance with acquisition regulations, my office
identified some other areas where contracting practices might be improved:

.   For two contacts, we concluded that USAID should fully document what is discussed in pre-
    solicitation meetings with potential offerors.

.   For two contracts, the level of effort initially estimated by USAID varied significantly from
    actual needs. .

.   For two contracts, USAID initially determined that contractors would need a facilities
    clearance and accordingly included this requirement in the request for proposals. After it
    found that the selected contractors did not have the requisite facilities clearances, USAID
    deleted the requirement.

.   For one contract, where a request for proposal did not require that offerors provide evidence
    of their legal status, the selected offeror’s status as a corporation had lapsed. However, the
    offeror became aware of this problem and corrected it prior to signing the contract with
    USAID.

In addition to this work which focused on contracting processes associated wit the Iraq program,
my office has also conducted Financial and Performance Audits in Iraq itself.


                                                 3

Specifically, we have initiated 33 Financial Audits covering costs incurred by contractors
implementing the USAID program to rebuild Iraq. These audits are being performed by Defense
Contract Audit Age ncy auditors located in Baghdad and Kuwait City and in DCAA Regional
offices in the U.S. The audits will examine the propriety of costs incurred under these contracts
and the contractors’ internal control systems. The OIG will review and issue the final reports to
USAID to ensure that USAID collects any Questioned Costs due to USAID and takes action on
any identified management and financial system weaknesses. To date, we have issued 22 audit
reports covering about $35 million in USAID funds. The auditors questioned $339,646, which
included $275,772 in eligible costs and $63,874 in unsupported costs.

In addition, we have conducted one Performance Audit that examined the accuracy of results
data compiled by USAID for its education activities in Iraq. My staff is drafting a report on the
results of that audit now. We will conduct additional Performance Audits in Iraq during fiscal
year 2004.

Proactive investigative work will include continual review and assessment of contracts and
contract files to determine areas of potential vulnerability. In addition, contacts with key
personnel involved with the effort have been initiated. The OIG will investigate any allegations
of wrongdoing in the Iraq program.

Again, thank you for the opportunity to testify today. I will be happy to respond to any questions
you may have.




                                                4

